NO. 19-30

3In the
6uprente Court of tbe

iptate5

4,7141LX4NO
ZOE SPENCER,
Petitioner,
v.
VIRGINIA STATE UNIVERSITY and KEITH T. MILLER,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
REPLY BRIEF OF PETITIONER

DR. ZOE SPENCER
PETITIONER PRO SE
4107 OVERRDIGE DR.
CHESTER, VA 23831
(240) 351-9528
DR.ZOESPENCER@GMAIL.COM

SEPTEMBER 13, 2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

1

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES

ii

REPLY BRIEF FOR PETITIONER

1

ARGUMENT

3

THE FOURTH CIRCUIT'S DECISION DOES NOT
STAND AGAINST THE FACTS AND INSTRUCTION
OF CORNING

3

NEW VIRGINIA DEPARTMENT OF HUMAN
RESOURCE MANAGEMENT REGULATION PROHIBITS THE USE OF PRIOR SALARY TO ESTABLISH FUTURE SALARY

9

THE FOURTH CIRCUIT'S GLARING DISREGARD FOR SUMMARY JUDGMENT STANDARD
INFRINGED UPON THE SEVENTH AMENDMENT.. 10
CONCLUSION

13

APPENDIX TO REPLY BRIEF

14

APPENDIX TABLE OF CONTENTS
Press Release of Governor Ralph Northam of
Virginia Announcing Elimination of Prior or
Existing Salary History as a Basis for
Starting Pay or Future Salary Adjustments
(June 20, 2019)
la

11

TABLE OF. AUTHORITIES
Page
CASES
Adams v. University of North Carolina—
Wilmington, 640 F.3d 550 (4thCir. 2011)

8

Aldrich v. Randolph Cent. School Dist.,
963 F.2d 520 (2d Cir. 1992)

2

Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
106 S.Ct. 2505, 91 L.Ed.2d 202 (1986)
11, 12
Beck- Wilson v. Principi,
441 F.3d 353 (6th Cir. 2006)

2

Bickerstaff v. Vassar College,
196 F.3d 435 (2d Cir. 1999)

8

Brosseau v. Haugen,
543 U. S., 194 (2004)
Corning Glass Works v. Brennan,
417 U.S. 188, 94 S.Ct. 2223 (1974)

12
passim

EEOC v. Maryland Insurance Admin.,
879 F.3d 114 (4th Cir. 2018)

2

Herster v. Bd. of Supervisors of Louisiana
State Univ., 887 F.3d 177 (5th Cir. 2018)

8

Kouba v. Allstate Insurance Co.,
691 F.2d 873 (9th Cir. 1982)

2

Kumar v. Bd. of Trustees, University of Mass,
774 F.2d 1 (1st Cir. 1985)

8

McDonnell Douglas Corp. v. Green,
411 U.S. 792 (1973)

12

111

TABLE OF AUTHORITIES—Continued
Page

Perry v. Sindermann,
408 U.S. 593 (1972)

8

Riser v. QEP Energy, Inc.,
776 F.3d at 1199 (10th Cir. 2003)

2

Tolan v. Cotton,
572 U.S. 650 (2014)

10, 11, 12

Univ. of Pa. v. EEOC,
493 U.S. 182 (1990)

8

Yates v. United States,
135 S.Ct. 1074 (2015)

2

Zahorik v. Cornell Univ.,
729 F.2d 85 (2d Cir. 1984)

8

CONSTITUTIONAL PROVISIONS
U.S. Const. amend. VII

2, 10

STATUTES
29 U.S.C. § 206(d)(1)

1

42 U.S.C. § 2000e-2(a)(1)

1

Bennett Amendment § 703(h)

1

JUDICIAL RULES
Fed. R. Civ. P. 56(b)

2

Fed. R. Civ. P. 56(c)

11

Sup. Ct. R. 14(e)(i)

1

iv
TABLE OF AUTHORITIES—Continued
Page
OTHER AUTHORITIES
S. Rep. No. 176,
88th Cong., 1st Sess., 1 (1963)

6

1

÷'P-0100104M
REPLY BRIEF FOR PETITIONER
In a clever act of sophistryl, respondents attempt
to divert this Court's attention away from the prior
salary question that is absolutely inseparable from
the Fourth Circuit's decision below, by claiming that:
the petition is merely advisory; the circuit split
minimal; and, the "entrenched discrimination" that
is inherent in employers' reliance upon prior salary is
only relative to cases of "previous employers" and
does not arise in cases of "employees working for the
same employer in other positions." (Bi0.1).
Despite respondents' attempt to minimize the issue
of prior salary and the conflict it has presented, the
petition offers a lengthy analysis of the inescapable
conflict between the Courts of Appeals on whether
prior salary constitutes "any other factor other than
sex" under the Equal Pay Act of 1963, 29 U.S.C.
§ 206(d)(1) and, correspondingly, under the Bennett
Amendment § 703(h) to Title VII of the Civil Rights
Act of 1964, 42 U.S.C. § 2000e-2(a)(1), that petitioner
need not restate here. (Pet.17-34). Notwithstanding this
divergence however, even sister circuits that affirm a
prior salary exception as a part of a mixed motive
defense, including those that purport to rely upon a
"gender neutral compensation/classification system,"
are steadfast in their adherence to this Court's precedent that "salary differentials be related to bona fide
1 Petitioner will not address strange respondent assertion that
this Court reviews "judgments, not opinions" (Bio.11), ignoring
that the first section in the body of a petition is titled "Opinions
Below". Sup. Ct. R. 14(e)(i).

2

job evaluation plans." Corning Glass Works v. Brennan,
417 U.S. 188, 201, 94 S.Ct. 2223 (1974). See, Aldrich
v. Randolph Cent. School Dist., 963 F.2d 520, 524, 525
(2d Cir. 1992) ("job classification system resulting in
differential pay is rooted in legitimate business-related
differences in work responsibilities and qualifications
for the particular positions at issue"); Beck- Wilson v.
Principi, 441 F.3d 353, 365, 366 (6th Cir. 2006) ("a
factor other than sex can be an affirmative defense"
. . . when "adopted for a legitimate business reason.");
Kouba v. Allstate Insurance Co., 691 F.2d 873, 878
(9th Cir. 1982); Riser v. QEP Energy, Inc., 776 F.3d at
1199 (10th Cir. 2003) ("The EPA precludes an employer
from relying solely upon a prior salary to justify pay
disparity.")
The divergence between the circuits on the prior
salary issue, including the Fourth Circuit's opposing
decisions in the decision below and EEOC v. Maryland
Insurance Admin., 879 F.3d 114 (4th Cir. 2018), are
directly related to how closely the lower courts' adhere
to the canons of nocitur a sociis and ejusdem generis
in their statutory interpretation of "the catchall exception," see, Yates v. United States, 135 S.Ct. 1074,
1082, 1086 (2015) and, the instruction of this Court
in Corning. This unquestionably impacts how the lower
courts' decisions, especially when weighing Rule 56b
motions, either preserve or depreciate the legislative
intent and enforcement of the EPA, this Court's authority in Corning, and Seventh Amendment protection
for those bringing claim under the Act. The fact that
the Fourth Circuit's decision below contravenes the
intent of the EPA, this Court's precedent in Corning,
sister circuit precedent and its own, makes it an ex-

3

ceptional vehicle to address the prior salary conflict
and trigger this Court's review.
For the reasons argued below and those thoroughly
presented in the petition, the arguments presented in
respondents' Brief in Opposition should fail, and this
Court should grant the petition to address the Questions Presented.

ARGUMENT

Respondents posit that addressing the prior salary
question would not change the outcome of the Fourth
Circuit's decision below because the "appropriate
comparator" element is independent of the "prior salary"
element that the Fourth Circuit relied upon to ground
its decision below. Respondents therefore beckon this
Court to deny the petition, arguing the lower court's
decision would stand irrespective of this Court's review.
(BIO 10). But, for the reasons presented, it would not.
I.

THE FOURTH CIRCUIT'S DECISION DOES NOT STAND
AGAINST THE FACTS AND INSTRUCTION OF CORNING

The panel's vigorous holding that "there is no
dispute that the wage difference at issue resulted
from the University setting Shackleford's and Dial's
pay at 75% of their previous salaries as administrators"
(Pet.App.10a), is not dictum. The Fourth Circuit
clearly held that "undisputed/unrebutted evidence"
proves that the higher salaries of the two male
comparators, that were notably established by a male,
at the behest of a male, which would ordinarily constitute genuine issues of material fact as to whether

4

"sex" was a factor "were based upon their prior service
as University administrators, not their, sex."
(Pet.App.2a). This holding absolutely tethers the prior
salary- justification to the panel's conclusion that
being former administrators both entitled the males
to a higher salary and precluded petitioner from it.
A mere reading of the indistinguishable facts in
Corning settles that this Court does not agree with
the Fourth Circuit's decision below. In Corning, the
male employees originally worked "in the blowing room
where the lowest wage rate was 48 cents per hour and
where additional incentive pay could be earned." "All
of the inspection work" at Corning "was performed
by women," who were earning 20-30 cents per hour.
Corning, 417 U.S. at 191. When the Corning plant
expanded its operating hours and created a new night
shift inspector position, laws in New York and Pennsylvania prohibited women from working at night.
Reasonably, Corning transferred male employees who
had been performing day shift work in the blowing
room to the inspector positions on the night shift. Id.
at 191.
The male employees so transferred demanded
and received wages substantially higher than
those paid to women inspectors . . . Higher
wages were demanded in part because the
men had been earning more money on their
day shift jobs than women were paid for
inspection work . . . There is also some evidence . . . in the record that additional compensation was necessary because the men
viewed inspection jobs as 'demeaning' and
as `women's work.' Id., 417, U.S. 191-192.

5

The female day shift inspectors requested a salary
alignment to that of the higher paid male inspectors,
which Corning denied. In defense of the wage differential, Corning argued that the males were entitled
to the higher wages, in their comparable positions,
because the "shift differential" did not constitute
"similar working conditions" under the Act.
Although the circumstances behind the transfers
may differ, the factual elements of prior salary and
appropriate comparators within the same employer that
undergird the wage differential in Corning are identical
to the instant case. Yet, Corning did not rely upon
the males' prior salaries or their prior service "in the
blowing room" as a defense to their higher salaries as
inspectors. Nor, did this Court in Corning give
deference to the prior salaries or unrelated experience of the males in its analysis. The history and
legislative intent of the Act would have precluded it
then, just as it does now. Thus, the principle question
Corning presented was simple: Did Corning ever
violate the Equal Pay Act by paying male night shift
inspectors more than female day shift inspectors? Id.
at 195. And, does the "shift differential" serve as an
affirmative defense?
In Corning, the "job in question," was undoubtedly the job/work of "inspector". Just as the "job/work
in question" in the instant case has always been
Associate Professor. Even though the males previously earned higher wages working jobs in Corning's "allmale blowing room," requiring different skills, before
being transferred to the "demeaning women's work,"
the Corning analysis unquestionably established that
once the males became "inspectors," the equality of

6

work standard, hence the appropriate comparator
analysis, which was based on Corning's job evaluation
system, shifted from the "skill, merit, experience, and
working condition" required to work in the blowing
room to the "skill, merit, experience, and working
conditions" required to work as an inspector. Id. at
199. Congress' intent and rationale for the statutory
language on equal work makes this clear. Id. at 201.
Inherent, but somewhat obscured, in this Court's
scalpel sharp statutory construction of the Act, is its
recognition that "entrenched wage discrimination"
was inherent in prior salaries, "because the wage
structure of many segments of American industry has
been based on an ancient but outmoded belief that a
man, because of his role in society, should be paid
more than a woman even though his duties are the
same." S. Rep. No. 176, 88th Cong., 1st Sess., 1 (1963).
Accordingly, ensuring that wage differentials would
be unequivocally correlated with the "skill, effort, responsibility, and working conditions" required for the
job in question, was integral to establishing a basis
for weighing whether a wage differential might be
discriminatory.
In such, the guiding question this Court relied
upon in its analysis of the facts in Corning and intent
of the Act was: "Whether Corning carried its burden
of proving that the higher rate paid for night inspection work . . . was in fact intended to serve as compensation for night work, or rather constituted an added
payment based upon sex." Id. This Court then aptly
adjudged:
We agree that the record amply supports
the District Court's conclusion that Corning

7

had not sustained its burden of proof. As its
history revealed, the higher night rate was
in large part the product of the generally
higher wage level of male workers and the
need to compensate them for performing what
were regarded as demeaning tasks. The differential arose simply because men would not
work at the low rates paid women inspectors.
Id. at 205, 206.
This Court then relied upon its analysis of the
intent and language of the Act in its determination
that it was not the aim of the Act to "depress" the
wages of males in order to achieve "equal pay for
equal work;" but rather, "to ensure that to remedy
violations of the Act, "[t]he lower wage rate must be
increased to the level of the higher." H.R. Rep. No.
309, supra, at 3. Id. at 207. By applying Congress'
intent, this Court unambiguously ruled: "the company
could not cure its violation except by equalizing the
base wages of female day inspectors with the higher
rates paid the night inspectors. This result is implicit
in the Act's language, its statement of purpose, and
its legislative history." Id. at 204-206.
By failing to adhere to the proper guidance of
this Court in Corning, the Fourth Circuit panel failed
to apply a proper "equal work standard" to the
"appropriate comparator" analysis that grounded its
prior salary and apprOpriate comparator conclusions.
A proper application of the facts and authority in
Corning dictates, petitioner was no more required to
have been an administrator, and no more precluded
from the higher prior salaries of the males once respondents transferred their salaries to the position of

8

Associate Professor, than the women in Corning were
required to have worked in "the blowing room" to
receive the higher prior salaries of the males once
Corning transferred their salaries to the "demeaning
women's work." Id.
The panel, then, improperly tosses out and
tramples over petitioners evidence of "equal work" and
the "bona fide job evaluation plan" in the professoriate, the tenure and promotion review, well-established
in respondents own binding University Handbook
policy (Pet.10,11,35) and the vast national case law
in higher education, in favor of simply accepting respondents' hodgepodge of unsupported claims about
the males' former roles, alleged credentials, and other
duties, that masked the males inferior experience,
responsibility, and productivity in the professoriate and
defended the appointments to the advanced promotion
rank of Associate, at the higher salaries. Pet.App.5a7a. See, Perry v. Sindermann, 408 U.S. 593, 600, 601
(1972); Univ. of Pa. v. EEOC, 493 U.S. 182 (1990);
See also, e.g., Kumar v. Bd. of Trustees, University of
Mass, 774 F.2d 1 (1st Cir. 1985); Bickerstaff v. Vassar
College, 196 F.3d 435, 456 (2d Cir. 1999); Adams v.
University of North Carolina—Wilmington, 640 F.3d
550, (4thCir. 2011); Herster v. Bd. of Supervisors of
Louisiana State Univ., 887 F.3d 177, 185 (5th Cir.
2018); and Zahorik v. Cornell Univ., 729 F.2d 85, 93
(2d Cir. 1984).
The Fourth Circuit's decision does not stand
against the facts and this Court's authority in Corning.

9

II. NEW VIRGINIA DEPARTMENT OF HUMAN RESOURCE
MANAGEMENT REGULATION PROHIBITS THE USE OF
PRIOR SALARY TO ESTABLISH FUTURE SALARY
Respondents Brief in Opposition poses a central
question: Whether reliance on the salary that an
employer has paid in the past to establish an employee's
ongoing salary constitutes a "factor other than sex"—
and thus an affirmative defense—under the Equal Pay
Act. Effective July 1, 2019, shortly after this petition
was filed, Governor Ralph Northam announced the
implementation of the "Employment Equity Initiative
for State Agencies," in the Commonwealth of Virginia.
This initiative eliminated the prior salary question
on state applications and now prohibits state agencies
from relying upon prior or existing salaries in setting
or adjusting pay. Although it is not legislation, the
new Virginia Department of Human Resource Management (DHRM) regulation applies to all state agencies,
which includes respondents, and unequivocally establishes:
The new State Compensation Policy will provide a framework for fair and equitable pay.
Virginia will also eliminate provisions that
base starting pay and future salary adjustments on previous or existing salary; base
all salary actions on the Commonwealth's
three salary alignment fairness factors: experience, competencies for the position, and relevant credentials; and ensure that the salaries
of employees with comparable credentials
doing comparable work are fairly aligned.
This policy aligns state agency compensation
practices with the intent of the EPA and this Court's

10

instruction in Corning by ensuring that "all salary
actions be based on . . . "bona fide job evaluation plans"
Id. at 201. Most significantly, it effectively bans "all
provisions that base starting pay or future salary
adjustments on previous or existing salary;" and,
ensures that the salaries of "employees with comparable credentials doing comparable work are fairly
aligned." The Fourth Circuit's opinion below opposes
this state government initiative and establishes case
law that would prospectively adversely impact its
enforcement and judicial remedy for state employees.
III. THE FOURTH CIRCUIT'S GLARING DISREGARD FOR
SUMMARY JUDGMENT STANDARD INFRINGED UPON
THE SEVENTH AMENDMENT
In Tolan v. Cotton, 572 U.S. 650 (2014), the District Court granted summary judgment to Cotton, the
Fifth Circuit affirmed, and Tolan's petition for rehearing
en banc was denied. In its decision, the Fifth Circuit
affirmed the lower court's judgment that "Tolan failed
to overcome the qualified immunity bar, reasoning
that regardless of whether Cotton used excessive force,
he was entitled to qualified immunity because he did
not violate any clearly established right. 713 F.3d
299 (2013)." Id. at 651.
This Court held that in support of the circuit's
ruling that "Tolan failed to overcome the qualifiedimmunity bar, the court below credited the evidence
of the party seeking summary judgment, and failed
properly to acknowledge key evidence offered by the
party opposing that motion . . . The Court should have
acknowledged and credited Tolan's evidence." Id. at
659, 660.

11

Rule 56(c) of the Federal Rules of Civil Procedure provides that summary judgment
`shall be rendered forthwith if the pleadings,
depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any, show that there is no genuine
issue as to any material fact and that the
moving party is entitled to a judgment as a
matter of law. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 247 (1986).
Anderson instructs, "summary judgment will not lie
if the dispute about a material fact is genuine, that
is, if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party." This Court
further instructs that "at the summary judgment stage
the judge's function is not himself to weigh the evidence and determine the truth of the matter but to
determine whether there is a genuine issue for trial."
Anderson, 477 U.S. at 249.
Respondents claim that the "fact bound conclusion"
that petitioner did not make out her prima facie case
"would not warrant this Court's review in any event."
(Bi0.11). But, that argument is only true if the facts
that bound the conclusion are so undisputable that
they rise to a matter of law and if in weighing the
facts, the lower courts do not infringe upon the role of
the jury. Like the Fifth Circuit in Tolan, the Fourth
Circuit critically erred in two ways. The decision
below misconstrues the prima facie and affirmative
defense standards, and grossly misapprehends summary judgment standard.
Petitioner devotes an entire section (Pet.34-38)
and invests in a lengthy appendix to show this Court,

12

not just circumstantial, but direct evidence in the
record that contradicts each of the key factual conclusions relied upon in the decision below and raised
genuine issues of material fact and pretext. This was
all that was required to establish her prima facie
case under the McDonnell Douglass burden shifting
analysis. McDonnell Douglas Corp. v. Green, 411
U.S. 792 (1973). Yet, like the Fifth Circuit in. Tolan,
not only did the Fourth Circuit panel fail "properly to
acknowledge key evidence offered by the party opposing
that motion" Tolan, 572 U.S. 659; but, it made credibility determinations in favor of respondents and
then disrespectfully dismissed petitioner's credible evidence. (Pet.App.5a-8a). Consequently, "in articulating
the factual context of the case," the Fourth Circuit
also "failed to adhere to the axiom that in ruling on a
motion for summary judgment, "[t]he evidence of the
nonmovant is to be believed, and all justifiable inferences are to be drawn in [her] favor." Id., Quoting,
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255,
106 S.Ct. 2505, 91 L.Ed.2d 202 (1986).
In Tolan, this Court held, "we intervene here
because the opinion below reflects a clear misapprehension of summary judgment standards in light of our
precedents." Id., quoting, Cf. Brosseau v. Haugen,
543 U. S., 194, 197-198 (2004). This Court so decided:
"For that reason, we vacate its decision and remand
the case for further proceedings consistent with this
opinion." Tolan v. Cotton 572 U.S. 650, 651 (2014).

13

CONCLUSION
This Court should grant the petition for writ of
certiorari.
Respectfully submitted,
DR. ZOE SPENCER
PETITIONER PRO SE
4107 OVERRDIGE DR.
CHESTER, VA 23831
(240) 351-9528
DR.ZOESPENCER@GMAIL.COM

SEPTEMBER 13, 2019

14

APPENDIX TO REPLY BRIEF
Governor Northam Announces Employment
Equity Initiative for State Agencies
[Press Release] (June 20, 2019)

la

Reply.App. 1 a

PRESS RELEASE OF GOVERNOR RALPH
NORTHAM OF VIRGINIA ANNOUNCING
ELIMINATION OF PRIOR OR EXISTING SALARY
HISTORY AS A BASIS FOR STARTING PAY OR
FUTURE SALARY ADJUSTMENTS
(JUNE 20, 2019)
GOVERNOR NORTHAM ANNOUNCES
EMPLOYMENT EQUITY INITIATIVE FOR STATE AGENCIES
State Employment Application and Compensation
Policies Will Promote Fair and Equitable Pay
RICHMOND—Governor Ralph Northam today
announced the implementation of a two-part state
Employment Equity Initiative designed to position
the Commonwealth as a leader in equitable pay and
employment. Beginning July 1, the Virginia Department of Human Resource Management (DHRM) will
introduce a modern, streamlined, and competitive application process, along with revisions to the State
Compensation Policy, to support fair and equitable pay.
"Since the beginning of- my administration, we
have worked every day to break down barriers to
opportunity and make this Commonwealth a more
inclusive and equitable place," said Governor Northam.
"This initiative adopts industry-wide best practices in
compensation and employment, which will help attract
and retain top talent in our state workforce and bring
greater equity and overdue improvements to our state
policies."
Apart from required application information being
added or deleted to comply with evolving state and

Reply.App.2a

federal employment law, the state job application has
not been comprehensively re-designed in nearly 50
years. The streamlined application will eliminate salary
history, school name, age indicator, and other fields
with potential for unconscious bias; offer a preferred
pronoun to highlight the state's diversity and inclusion
efforts; and allow the option to submit only a resume
and personal information for consideration. In addition, for the first time, anyone seeking a state job will
be able to use a mobile device to apply for a state
position.
"When compared with our competitors, Virginia's
current time consuming and overly complex application
has become a deterrent to those applying for state jobs,"
said Secretary of Administration Keyanna Conner.
"While Virginia changed the Compensation Policy
almost 20 years ago to provide a more flexible system,
current or prior salary continues to be used as a base
for percentage increases in pay when employees are
hired or make career moves within state government."
The new State Compensation Policy will provide
a framework for fair and equitable pay. Virginia will
also eliminate provisions that base starting pay and
future salary adjustments on previous or existing
salary; base all salary actions on the Commonwealth's
three salary alignment fairness factors: experience,
competencies for the position, and relevant credentials;
and ensure that the salaries of employees with
comparable credentials doing comparable work are
fairly aligned.
For Immediate Release: June 20, 2019
Contacts: Office of the Governor:
Alena Yarmosky,
Alena.Yarmosky@governor.virginia.gov

